TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                    Treasury Inspector General for Tax
                Administration – Federal Information Security
                Management Act Report for Fiscal Year 2010



                                       November 10, 2010

                              Reference Number: 2011-20-003




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

  Redaction Legend:
  2(f) = Risk Circumvention of Agency Regulation or Statute




 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                DEPARTMENT OF THE TREASURY
                                                      WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                             November 10, 2010


 MEMORANDUM FOR ASSISTANT INSPECTOR GENERAL FOR AUDIT
                OFFICE OF THE INSPECTOR GENERAL
                DEPARTMENT OF THE TREASURY

 FROM:                        Michael R. Phillips
                              Deputy Inspector General for Audit

 SUBJECT:                     Treasury Inspector General for Tax Administration – Federal
                              Information Security Management Act Report for Fiscal Year 2010
                              (Audit # 201020010)

 We are pleased to submit the Treasury Inspector General for Tax Administration’s Federal
 Information Security Management Act (FISMA)1 report for the Fiscal Year 2010 FISMA
 evaluation period.2 The FISMA requires the Office of Inspector General to perform an annual
 independent evaluation of each Federal agency’s information security policies, procedures, and
 practices, as well as evaluate its compliance with FISMA requirements. This report reflects our
 independent evaluation of the Internal Revenue Service’s (IRS) information technology security
 program for the period under review.
 We based our evaluation of the IRS on the Office of Management and Budget’s (OMB) FISMA
 2010 Reporting Guidelines. During the 2010 evaluation period, we conducted 10 audits, as
 shown in Appendix II, to evaluate the adequacy of information security in the IRS. We
 considered the results of these audits in our evaluation. In addition, we evaluated a
 representative sample of 10 major IRS information systems for our FISMA work. For each
 system in the sample, we assessed the quality of the certification and accreditation process, the
 annual testing of controls for continuous monitoring, the testing of information technology
 contingency plans, and the quality of the Plan of Action and Milestones process. We also
 conducted tests to evaluate processes over configuration management, incident response and


 1
  44 U.S.C. §§ 3541–3549.
 2
  The Fiscal Year 2010 FISMA evaluation period for the Department of the Treasury is July 1, 2009, through
 June 30, 2010. All subsequent references to 2010 refer to the FISMA evaluation period.
                        Treasury Inspector General for Tax Administration –
                           Federal Information Security Management Act
                                    Report for Fiscal Year 2010


reporting, security training, remote access, account and identity management, and contractor
oversight.
Included in Appendix I are our responses to the OMB’s 2010 FISMA checklist for the Inspectors
General. Major contributors to this report are listed in Appendix III.
Based on our 2010 evaluation, we determined that the IRS’s information security program was
generally compliant with the FISMA legislation, OMB information security requirements, and
related information security standards published by the National Institute of Standards and
Technology. We determined that the following program areas met the level of performance
specified by the OMB’s 2010 FISMA checklist.
    •   Certification and accreditation program.
    •   Incident response and reporting program.
    •   Remote access management.
While the information security program was generally compliant with the FISMA legislation, the
program was not fully effective as a result of the conditions identified in the following areas.
    •   Configuration management.
    •   Security training.
    •   Plans of action and milestones.
    •   Identity and access management.
    •   Continuous monitoring management.
    •   Contingency planning.
    •   Contractor systems/financial audit.
Specific to the financial audit area, the Government Accountability Office (GAO) reported3
newly identified and unresolved information security control weaknesses in key financial and tax
processing systems continue to jeopardize the confidentiality, integrity, and availability of
financial and sensitive taxpayer information. Until these control weaknesses are corrected, the
IRS remains unnecessarily vulnerable to insider threats related to the unauthorized access to and
disclosure, modification, or destruction of financial and taxpayer information, as well as the
disruption of system operations and services. These conditions were the basis for GAO’s
determination that the IRS had a material weakness in internal controls over financial reporting
related to information security in Fiscal Year 2009.

3
 INFORMATION SECURITY: IRS Needs to Continue to Address Significant Weaknesses (GAO-10-355, dated
March 2010).
                                                                                                    2
                      Treasury Inspector General for Tax Administration –
                         Federal Information Security Management Act
                                  Report for Fiscal Year 2010


Copies of this report are also being sent to the IRS managers affected by the report results.
Please contact me at (202) 622-6510 if you have questions or Alan R. Duncan, Assistant
Inspector General for Audit (Security and Information Technology Services), at (202) 622-5894.




                                                                                             3
                                  Treasury Inspector General for Tax Administration –
                                     Federal Information Security Management Act
                                              Report for Fiscal Year 2010




                                            Table of Contents

Background .......................................................................................................... Page 1

Appendices
          Appendix I – Results of the Treasury Inspector General for
          Tax Administration’s Federal Information Security
          Management Act Review .............................................................................. Page 2
          Appendix II – Treasury Inspector General for Tax Administration
          Information Technology Security Reports Issued During the
          2010 Evaluation Period ................................................................................. Page 21
          Appendix III – Major Contributors to This Report....................................... Page 22
          Appendix IV – Report Distribution List ....................................................... Page 23
          Treasury Inspector General for Tax Administration –
             Federal Information Security Management Act
                      Report for Fiscal Year 2010




                    Abbreviations

CIO          Chief Information Officer
FCD1         Federal Continuity Directive 1
FDCC         Federal Desktop Core Configuration
FIPS         Federal Information Processing Standards
FISMA        Federal Information Security Management Act
GAO          Government Accountability Office
HSPD         Homeland Security Presidential Directive
IRS          Internal Revenue Service
MOU          Memorandum of Understanding
NIST         National Institute of Standards and Technology
OIG          Office of the Inspector General
OMB          Office of Management and Budget
PIV          Personal Identity Verification
POA&M        Plan of Action and Milestones
TIGTA        Treasury Inspector General for Tax Administration
TT&E         Training, Testing, and Exercises
US-CERT      United States Computer Emergency Response Team
                              Treasury Inspector General for Tax Administration –
                                 Federal Information Security Management Act
                                          Report for Fiscal Year 2010




                                       Background

The Internal Revenue Service (IRS) collects and maintains a significant amount of personal and
financial information on each taxpayer. The IRS also relies extensively on computerized
systems to support its responsibilities in collecting taxes, processing tax returns, and enforcing
the Federal tax laws. As custodians of taxpayer information, the IRS has an obligation to protect
the confidentiality of this sensitive information against unauthorized access or loss. Otherwise,
taxpayers could be exposed to invasion of privacy and financial loss or damage from identity
theft or other financial crimes.
The Federal Information Security Management Act (FISMA)1 was enacted to strengthen the
security of information and systems within Federal agencies. As part of this legislation, each
Federal Government agency is required to report annually to the Office of Management and
Budget (OMB) on the effectiveness of its security programs. In addition, the FISMA requires
the Offices of Inspector General to perform an annual independent evaluation of each Federal
agency’s information security policies and procedures, as well as evaluate its compliance with
FISMA requirements. In compliance with the FISMA requirements, the Treasury Inspector
General for Tax Administration (TIGTA) performs the annual independent evaluation of the
information security program and practices of the IRS.
The OMB provides information security performance measures by which each agency is
evaluated for the FISMA review. The OMB uses the information from the agencies and
independent evaluations to help assess agency-specific and Federal Governmentwide security
performance, develop its annual security report to Congress, and assist in improving and
maintaining adequate agency security performance.
Attached is the TIGTA’s Fiscal Year 2010 FISMA report. The report was forwarded to the
Treasury Inspector General for consolidation into a report issued to the Department of the
Treasury Chief Information Officer.




1
    44 U.S.C. §§ 3541–3549.
                                                                                           Page 1
                              Treasury Inspector General for Tax Administration –
                                 Federal Information Security Management Act
                                          Report for Fiscal Year 2010


                                                                                                    Appendix I

        Results of the Treasury Inspector General for
          Tax Administration’s Federal Information
             Security Management Act Review1

The OMB issued a checklist for use by Offices of Inspectors General to assess the level of
performance achieved by agencies in the specified program areas during the 2010 FISMA
evaluation period. This appendix presents our completed OMB checklist for the IRS.
We determined the level of performance (a, b, or c) that the IRS had achieved for each of the
program areas listed. As defined by the OMB, agencies achieve an “a” status for the program
area if they have met all the attributes specified by OMB in the “a” section. Agencies achieve a
“b” status if they have established the program area, but significant improvements were needed.
The OMB listed conditions in the “b” section that, if in need of significant improvement, would
prevent agencies from achieving an “a” status. Agencies achieve a “c” status if they have not yet
established the program area.
We checked IRS program areas as an “a” status where we determined that the IRS met all the
program attributes specified by the OMB. We checked IRS program areas as a “b” status where
we determined that one or more conditions listed by the OMB needed significant improvement at
the IRS. Due to time and resource constraints, we were not able to test all conditions listed by
the OMB in the “b” sections. Therefore, it is possible that more of these conditions exist at the
IRS than those we have checked. We did not check any program areas as a “c” status because
the IRS has established all program areas listed by the OMB.
For our FISMA work, we evaluated a representative sample of 10 major IRS information
systems, which included 9 IRS systems and 1 contractor-managed system. Of these 10 systems,
1 system had a Federal Information Processing Standards (FIPS) 199 impact level of high, and
9 systems were of a moderate impact level. All 10 systems had a current certification and
accreditation, had security controls tested within the past year, and had contingency plans tested
in accordance with policy.




1
  Due to the nature of the listing that follows, abbreviations are used exactly as presented in the original document
reproduced and are not defined therein. Please see the Abbreviations page after the Table of Contents of this report
for a listing of abbreviations.
                                                                                                              Page 2
                             Treasury Inspector General for Tax Administration –
                                Federal Information Security Management Act
                                         Report for Fiscal Year 2010


                              RESPONSES TO FISCAL YEAR 2010
                          OMB QUESTIONS FOR INSPECTOR GENERALS
S1: Certification and Accreditation
Status of Certification         a. The Agency has established and is maintaining a certification and
and Accreditation           9      accreditation program that is generally consistent with NIST’s and OMB’s
Program [check one]                FISMA requirements. Although improvement opportunities may have been
                                   identified by the OIG, the program includes the following attributes:
                                   1. Documented policies and procedures describing the roles and
                                       responsibilities of participants in the certification and accreditation
                                       process.
                                   2. Establishment of accreditation boundaries for Agency information
                                       systems.
                                   3. Categorizes information systems.
                                   4. Applies applicable minimum baseline security controls.
                                   5. Assesses risks and tailors security control baseline for each system.
                                   6. Assessment of the management, operational, and technical security
                                       controls in the information system.
                                   7. Risks to Agency operations, assets, or individuals analyzed and
                                       documented in the system security plan, risk assessment, or an equivalent
                                       document.
                                   8. The accreditation official is provided (i) the security assessment report
                                       from the certification agent providing the results of the independent
                                       assessment of the security controls and recommendations for corrective
                                       actions; (ii) the plan of action and milestones from the information system
                                       owner indicating actions taken or planned to correct deficiencies in the
                                       controls and to reduce or eliminate vulnerabilities in the information
                                       system; and (iii) the updated system security plan with the latest copy of
                                       the risk assessment.
                                b. The Agency has established and is maintaining a certification and
                                   accreditation program. However, the Agency needs to make significant
                                   improvements as noted below.
                                c.   The Agency has not established a certification and accreditation program.
1a. If b. checked above,        1a(1) Certification and accreditation policy is not fully developed.
    check areas that need
    significant                 1a(2) Certification and accreditation procedures are not fully developed,
    improvement:                      sufficiently detailed, or consistently implemented.
                                1a(3) Information systems are not properly categorized (FIPS 199/SP 800-60).
                                1a(4) Accreditation boundaries for Agency information systems are not
                                      adequately defined.
                                1a(5) Minimum baseline security controls are not adequately applied to
                                      information systems (FIPS 200/SP 800-53).
                                1a(6) Risk assessments are not adequately conducted (SP 800-30).
                                1a(7) Security control baselines are not adequately tailored to individual
                                      information systems (SP 800-30).


                                                                                                             Page 3
                             Treasury Inspector General for Tax Administration –
                                Federal Information Security Management Act
                                         Report for Fiscal Year 2010


                                1a(8) Security plans do not adequately identify security requirements
                                      (SP 800-18).
                                1a(9) Inadequate process to assess security control effectiveness (SP 800-53A).
                                1a(10) Inadequate process to determine risk to Agency operations, Agency assets,
                                       or individuals or to authorize information systems to operate (SP 800-37).
                                1a(11) Inadequate process to continuously track changes to information systems
                                       that may necessitate reassessment of control effectiveness (SP 800-37).
                                1a(12) Other.

                                Explanation for Other:
Comments:

S2: Configuration Management
Status of Security              a. The Agency has established and is maintaining a security configuration
Configuration                      management program that is generally consistent with NIST's and OMB's
Management Program                 FISMA requirements. Although improvement opportunities may have been
[check one]                        identified by the OIG, the program includes the following attributes:
                                   1. Documented policies and procedures for configuration management.
                                   2. Standard baseline configurations.
                                   3. Scanning for compliance and vulnerabilities with baseline configurations.
                                   4. FDCC baseline settings fully implemented and/or any deviations from
                                       FDCC baseline settings fully documented.
                                   5. Documented proposed or actual changes to the configuration settings.
                                   6. Process for the timely and secure installation of software patches.
                                b. The Agency has established and is maintaining a security configuration
                            9      management program. However, the Agency needs to make significant
                                   improvements as noted below.
                                c. The Agency has not established a security configuration management
                                   program.
2a. If b. checked above,        2a(1) Configuration management policy is not fully developed.
    check areas that need
    significant             9 2a(2) Configuration management procedures are not fully developed or
    improvement:                       consistently implemented.
                                2a(3) Software inventory is not complete (NIST 800-53: CM-8).
                                2a(4) Standard baseline configurations are not identified for all software
                                      components (NIST 800-53: CM-8).
                                2a(5) Hardware inventory is not complete (NIST 800-53: CM-8).
                                2a(6) Standard baseline configurations are not identified for all hardware
                                      components (NIST 800-53: CM-2).
                                2a(7) Standard baseline configurations are not fully implemented
                                      (NIST 800-53: CM-2).
                                2a(8) FDCC is not fully implemented (OMB) and/or all deviations are not fully
                                      documented.
                                2a(9) Software scanning capabilities are not fully implemented
                                      (NIST 800-53: RA-5, SI-2).

                                                                                                             Page 4
                                  Treasury Inspector General for Tax Administration –
                                     Federal Information Security Management Act
                                              Report for Fiscal Year 2010


                                9 2a(10) Configuration-related vulnerabilities have not been remediated in a timely
                                             manner (NIST 800-53: CM-4, CM-6, RA-5, SI-2).
                                9     2a(11) Patch management process is not fully developed (NIST 800-53: CM-3,
                                             SI-2).
                                      2a(12) Other.

                                      Explanation for Other:
Comments:
2a(2): The IRS has not completed corrective actions to resolve the software configuration management component
of the IRS computer security material weakness.2 Although the IRS has made progress in implementing its
configuration management program, the IRS corrective action plan for resolving this material weakness indicates
ongoing corrective actions with scheduled completion dates ranging from April to December 2011. Until the IRS
has implemented adequate configuration management controls Agencywide, it cannot ensure the security and
integrity of system programs, files, and data.
     •    1-3-20: Ensure security configuration requirements for all system software are documented in an IRS
          Internal Revenue Manual. (Planned implementation date of April 2011)
     •    1-3-21: Implement and maintain baseline standard configurations on system software platforms and
          perform scheduled testing. This capability covers translation of Internal Revenue Manuals into standard
          build procedures and implementation/testing processes. (Planned implementation date of April 2011)
     •    1-3-22: Ensure system software is controlled under a documented change control process with procedures
          for assessment of security impact, notifications to Designated Approving Authorities, and appropriate
          baseline configuration updates. (Planned implementation date of April 2011)
     •    1-3-25: Establish and maintain collection and reporting of metrics to assess progress and track
          improvements in all component activity implementations over time. Successful operation of the policy,
          procedures, and plans for component activities for at least 2 consecutive quarters. Quarterly reviews by
          Cybersecurity and annual FISMA security reviews will revalidate compliance. (Planned implementation
          date of December 2011)
2a(10): In March 2010, TIGTA reported3 that the IRS was not timely addressing high- and medium-risk system
vulnerabilities that it identified on Automated Collection System servers. The IRS UNIX Policy Checker scans that
the IRS ran on the servers from January through May 2009 reported that some high- and medium-risk vulnerabilities
remained on the servers for 2 to 5 months before system administrators took corrective actions.



2
  The IRS declared its security program as a material weakness in 1997. The IRS further categorized the material weakness into
nine areas relating to computer security: (1) network access controls; (2) key computer applications and system access controls;
(3) software configuration; (4) functional business, operating, and program units security roles and responsibilities;
(5) segregation of duties between system and security administrators; (6) contingency planning and disaster recovery;
(7) monitoring of key networks and systems; (8) security training; and (9) certification and accreditation. An Executive Steering
Committee oversees the plan, ensuring that material weakness areas are addressed by all affected organizations, appropriate
policy and procedures are implemented, and actions resolve the systemic cause of the material weakness. The IRS has closed
four of the material weakness areas: (4) functional business, operating, and program units security roles and responsibilities
(5) segregation of duties between system and security administrators; (8) security training; and (9) certification and accreditation.
The TIGTA did not concur with the IRS’s closure of area (4), functional business, operating, and program units security roles and
responsibilities.
3
  Additional Security Controls Are Needed to Protect the Automated Collection System (Reference Number 2010-20-028, dated
March 30, 2010).

                                                                                                                           Page 5
                             Treasury Inspector General for Tax Administration –
                                Federal Information Security Management Act
                                         Report for Fiscal Year 2010


In addition, during the 2010 FISMA evaluation period, the TIGTA concluded fieldwork on an audit to evaluate IRS
email servers and found that the IRS is not taking timely actions to correct medium-risk security vulnerabilities
identified through monthly scans on its email servers. The Modernization and Information Technology Services
organization’s Enterprise Operations office uses the Windows Policy Checker to conduct monthly scans of its
70 email servers. The scans conducted from September 2009 through February 2010 determined the servers failed
between 73 and 79 medium-risk security checks each month. The number of failed security checks on each server
was the same each month.
2a(11): The IRS computer security material weakness relating to configuration management includes unresolved
weaknesses in the IRS patch management process. The IRS corrective action plan for resolving the patch
management weaknesses indicates the following two corrective actions will be completed in April 2011.
    •   1-3-23: Ensure system software is patched under a documented process that includes standard procedures
        and fall-back procedures, ensures patch testing, and ensures the dissemination, installation, and verification
        of patch installations for all components. (Planned implementation date of April 2011)
    •   1-3-24: Internal and external monitoring and reporting on secure configuration setting changes and patch
        levels. “Review” includes comparison to approved changes. “Remediation” includes followup on
        noncompliant components and testing and implementation of proposed corrections. (Planned
        implementation date of April 2011)
2b. Identify baselines reviewed:
2b(1) Software Name          None.
2b(2) Software Version None.

S3: Incident Response and Reporting
Status of Incident               a. The Agency has established and is maintaining an incident response and
Response & Reporting        9       reporting program that is generally consistent with NIST’s and OMB’s
Program [check one]                 FISMA requirements. Although improvement opportunities may have been
                                    identified by the OIG, the program includes the following attributes:
                                    1. Documented policies and procedures for responding and reporting to
                                        incidents.
                                    2. Comprehensive analysis, validation, and documentation of incidents.
                                    3. When applicable, reports to US-CERT within established time frames.
                                    4. When applicable, reports to law enforcement within established time
                                        frames.
                                    5. Responds to and resolves incidents in a timely manner to minimize further
                                        damage.
                                 b. The Agency has established and is maintaining an incident response and
                                    reporting program. However, the Agency needs to make significant
                                    improvements as noted below.
                                 c.   The Agency has not established an incident response and reporting program.
3a. If b. checked above,         3a(1) Incident response and reporting policy is not fully developed.
    check areas that need
    significant                  3a(2) Incident response and reporting procedures are not fully developed,
    improvement:                       sufficiently detailed, or consistently implemented.
                                 3a(3) Incidents were not identified in a timely manner (NIST 800-53, 800-61,
                                       and OMB M-07-16, M-06-19).


                                                                                                              Page 6
                            Treasury Inspector General for Tax Administration –
                               Federal Information Security Management Act
                                        Report for Fiscal Year 2010


                                3a(4) Incidents were not reported to US-CERT as required (NIST 800-53,
                                      800-61, and OMB M-07-16, M-06-19).
                                3a(5) Incidents were not reported to law enforcement as required.
                                3a(6) Incidents were not resolved in a timely manner (NIST 800-53, 800-61, and
                                      OMB M-07-16, M-06-19).
                                3a(7) Incidents were not resolved to minimize further damage (NIST 800-53,
                                      800-61, and OMB M-07-16, M-06-19).
                                3a(8) There is insufficient incident monitoring and detection coverage
                                      (NIST 800-53, 800-61, and OMB M-07-16, M-06-19).
                                3a(9) Other.

                                Explanation for Other:
Comments:

S4: Security Training
Status of Security              a. The Agency has established and is maintaining a security training program
Training Program                   that is generally consistent with NIST’s and OMB’s FISMA requirements.
[check one]                        Although improvement opportunities may have been identified by the OIG,
                                   the program includes the following attributes:
                                   1. Documented policies and procedures for security awareness training.
                                   2. Documented policies and procedures for specialized training for users
                                        with significant information security responsibilities.
                                   3. Appropriate training content based on the organization and roles.
                                   4. Identification and tracking of all employees with login privileges that need
                                        security awareness training.
                                   5. Identification and tracking of employees without login privileges that
                                        require security awareness training.
                                   6. Identification and tracking of all employees with significant information
                                        security responsibilities that require specialized training.
                                b. The Agency has established and is maintaining a security training program.
                            9      However, the Agency needs to make significant improvements as noted
                                   below.
                                c.   The Agency has not established a security training program.
4a. If b. checked above,        4a(1) Security awareness training policy is not fully developed.
    check areas that need
    significant                 4a(2) Security awareness training procedures are not fully developed,
    improvement:                      sufficiently detailed, or consistently implemented.
                                4a(3) Specialized security training policy is not fully developed.
                                4a(4) Specialized security awareness training procedures are not fully developed
                                      or sufficiently detailed (SP 800-50, SP 800-53).
                                4a(5) Training material for security awareness training does not contain
                                      appropriate content for the Agency (SP 800-50, SP 800-53).
                                4a(6) Identification and tracking of employees with login privileges that require
                                      security awareness training is not adequate (SP 800-50, SP 800-53).


                                                                                                          Page 7
                              Treasury Inspector General for Tax Administration –
                                 Federal Information Security Management Act
                                          Report for Fiscal Year 2010


                                  4a(7) Identification and tracking of employees without login privileges that
                                          require security awareness training is not adequate (SP 800-50,
                                          SP 800-53).
                                  4a(8) Identification and tracking of employees with significant security
                                          information security responsibilities is not adequate (SP 800-50,
                                          SP 800-53).
                                  4a(9) Training content for individuals with significant information security
                                          responsibilities is not adequate (SP 800-53, SP 800-16).
                                  4a(10) Less than 90 percent of employees with login privileges attended security
                                          awareness training in the past year.
                                  4a(11) Less than 90 percent of employees, contractors, and other users with
                                          significant security responsibilities attended specialized security awareness
                                          training in the past year.
                             9    4a(12) Other(s).
                                     (i): Not all contractors with staff-like access were provided with security
                                          awareness training.
                                      (ii): Until the IRS improves its identification and tracking of employees and
                                           contractors with significant security responsibilities, the percentage of
                                           those who completed specialized security training in the past year cannot
                                           be verified.
                                  Explanation for Other(s):
                                     (i): In accordance with FISMA requirements, IRS policy requires the Agency
                                          to provide security awareness training to inform all IRS employees and
                                          contractors of the information security risks associated with their activities
                                          and their responsibilities in complying with IRS policies and procedures
                                          designed to reduce these risks. However, in June 2010, the GAO reported
                                          that the IRS did not provide security awareness training for all IRS
                                          contractors, such as janitors and security guards, who are provided
                                          unescorted physical access to its facilities containing taxpayer receipts and
                                          information.4 Based on the GAO’s finding, the IRS stated it updated its
                                          policy as of September 7, 2010, to require all contractors to take security
                                          awareness training suitable to their type of access. The IRS also stated that
                                          it modified its contractor tracking system to track the completion of the
                                          required training modules for each contractor during the Fiscal Year 2011
                                          FISMA evaluation period.
                                     (ii): We were unable to definitively determine the percentage of employees and
                                           contractors with significant security responsibilities that completed
                                           specialized security training in the Fiscal Year 2010 FISMA evaluation
                                           period. The IRS reported 6,014 of 6,029 (99.8 percent) employees
                                           completed their required hours of specialized security training for the
                                           Fiscal Year 2010 FISMA evaluation period. The IRS did not track




4
 Management Report: Improvements Are Needed in IRS's Internal Controls and Compliance with Laws and Regulations
(GAO-10-565R, dated June 2010).

                                                                                                               Page 8
                                Treasury Inspector General for Tax Administration –
                                   Federal Information Security Management Act
                                            Report for Fiscal Year 2010


                                            contractor completion of specialized security training. In a recent TIGTA
                                            review,5 we reported that the IRS needed to improve processes to identify
                                            all IRS employees and contractors performing in security roles requiring
                                            specialized training. The IRS had not yet documented in its official policy
                                            five security roles that the Department of the Treasury policy states must
                                            receive specialized training. As a result, the IRS agreed to update its
                                            policy to include all security roles in existence at the IRS and crosswalk
                                            these with its current training curriculum. In addition, the IRS stated it has
                                            recently modified its contractor tracking system to identify contractors that
                                            require specialized training and plans to write policy and associated
                                            security clauses to require contractors to comply with these training
                                            requirements, to be effective for the Fiscal Year 2012 FISMA evaluation
                                            period. Until the IRS completes these actions, we cannot verify the
                                            population of IRS employees and contractors that require specialized
                                            training or the numbers of those that completed their required training.
Comments:

S5: POA&M
Status of Plan of Action            a. The Agency has established and is maintaining a POA&M program that is
& Milestones (POA&M)                   generally consistent with NIST’s and OMB’s FISMA requirements and tracks
Program [check one]                    and monitors known information security weaknesses. Although improvement
                                       opportunities may have been identified by the OIG, the program includes the
                                       following attributes:
                                       1. Documented policies and procedures for managing all known IT security
                                            weaknesses.
                                       2. Tracks, prioritizes, and remediates weaknesses.
                                       3. Ensures remediation plans are effective for correcting weaknesses.
                                       4. Establishes and adheres to reasonable remediation dates.
                                       5. Ensures adequate resources are provided for correcting weaknesses.
                                       6. Program officials and contractors report progress on remediation to CIO
                                            on a regular basis, at least quarterly, and the CIO centrally tracks,
                                            maintains, and independently reviews/validates the POA&M activities at
                                            least quarterly.
                                    b. The Agency has established and is maintaining a POA&M program that tracks
                              9        and remediates known information security weaknesses. However, the Agency
                                       needs to make significant improvements as noted below.
                                    c.   The Agency has not established a POA&M program.
5a. If b. checked above,            5a(1) POA&M policy is not fully developed.
    check areas that need
    significant                     5a(2) POA&M procedures are not fully developed, sufficiently detailed, or
    improvement:                          consistently implemented.
                              9 5a(3) POA&Ms do not include all known security weaknesses (OMB M-04-25).


5
 More Actions Are Needed to Correct the Security Roles and Responsibilities Portion of the Computer Security Material
Weakness (Reference Number 2010-20-084, dated August 26, 2010).

                                                                                                                    Page 9
                                Treasury Inspector General for Tax Administration –
                                   Federal Information Security Management Act
                                            Report for Fiscal Year 2010


                                   5a(4) Remediation actions do not sufficiently address weaknesses
                                         (NIST SP 800-53, Rev. 3, Sect. 3.4 Monitoring Security Controls).
                                   5a(5) Initial dates of security weaknesses are not tracked (OMB M-04-25).

                                   5a(6) Security weaknesses are not appropriately prioritized (OMB M-04-25).

                                   5a(7) Estimated remediation dates are not reasonable (OMB M-04-25).

                                   5a(8) Initial target remediation dates are frequently missed (OMB M-04-25).
                                   5a(9) POA&Ms are not updated in a timely manner (NIST SP 800-53, Rev. 3,
                                          Control CA-5, & OMB M-04-25).
                                   5a(10) Costs associated with remediating weaknesses are not identified
                                          (NIST SP 800-53, Rev. 3, Control PM-3 & OMB M-04-25).
                                   5a(11) Agency CIO does not track and review POA&Ms (NIST SP 810-53m,
                                          Rev. 3, Control CA-5 & OMB M-04-25).
                                   5a(12) Other:
                              9           Security weaknesses were closed in POA&Ms before effective corrective
                                          action was taken.
                                   Explanation for Other:
                                          In August 2009, the TIGTA reported6 that the IRS had prematurely
                                          reported resolution of 6 of 13 security control vulnerabilities in the
                                          POA&M for the Customer Accounts Data Engine before effective
                                          corrective action was taken.
                                            In May 2010, the TIGTA reported7 that the IRS closed four POA&M
                                            weaknesses identified in the Modernized e-File system before effective
                                            corrective action was taken.
                                            During the 2010 FISMA evaluation period, the IRS took steps to improve
                                            its POA&M procedures, including requiring system owners to document
                                            sufficient detail regarding how weaknesses were remediated before
                                            changing their status to “completed.” We reviewed the weaknesses that
                                            were closed during the 2010 FISMA cycle for our 10 sample systems and
                                            found system owners had documented information to support their
                                            corrective actions. However, we did not find information to indicate that
                                            required verifications were performed before closing these weaknesses as
                                            per IRS policy. The Cybersecurity organization indicated that this
                                            verification step may be implemented during the next FISMA cycle,
                                            depending on available resources.
Comments:
5a(3): In May 2010, the TIGTA reported8 that security weaknesses identified by the IRS at seven of the eight
contractor facilities we sampled were not maintained in POA&Ms as required by the FISMA. These weaknesses


6
  Customer Account Data Engine Release 4 Includes Most Planned Capabilities and Security Requirements for Processing
Individual Tax Account Information (Reference Number 2009-20-100, dated August 28, 2009).
7
  Modernized e-File Will Enhance Processing of Electronically Filed Individual Tax Returns, but System Development and
Security Need Improvement (Reference Number 2010-20-041, dated May 26, 2010).

                                                                                                                  Page 10
                               Treasury Inspector General for Tax Administration –
                                  Federal Information Security Management Act
                                           Report for Fiscal Year 2010


included access control, configuration management control, and system integrity control issues. The IRS agreed
with our report finding that these security weaknesses should be tracked in POA&Ms.
In addition, during the Fiscal Year 2010 FISMA evaluation period, the TIGTA completed fieldwork on an audit to
evaluate IRS email servers and found that medium-risk weaknesses the IRS repeatedly detected on its email servers
through monthly scans were not posted to POA&Ms. Monthly scans conducted from September 2009 through
February 2010 determined that the servers failed between 73 and 79 medium-risk security checks each month.


S6: Remote Access Management
Status of Remote Access            a. The Agency has established and is maintaining a remote access program that
Program [check one]           9       is generally consistent with NIST’s and OMB’s FISMA requirements.
                                      Although improvement opportunities may have been identified by the OIG,
                                      the program includes the following attributes:
                                      1. Documented policies and procedures for authorizing, monitoring, and
                                           controlling all methods of remote access.
                                      2. Protects against unauthorized connections or subversion of authorized
                                           connections.
                                      3. Users are uniquely identified and authenticated for all access.
                                      4. If applicable, multi-factor authentication is required for remote access.
                                      5. Authentication mechanisms meet NIST Special Publication 800-63
                                           guidance on remote electronic authentication, including strength
                                           mechanisms.
                                      6. Requires encrypting sensitive files transmitted across public networks or
                                           stored on mobile devices and removable media such as CDs and flash
                                           drives.
                                      7. Remote access sessions are timed-out after a maximum of 30 minutes of
                                           inactivity, after which re-authentication is required.
                                   b. The Agency has established and is maintaining a remote access program.
                                      However, the Agency needs to make significant improvements as noted
                                      below.
                                   c.   The Agency has not established a program for providing secure remote access.
6a. If b. checked above,           6a(1) Remote access policy is not fully developed.
    check areas that need
    significant                    6a(2) Remote access procedures are not fully developed, sufficiently detailed, or
    improvement:                         consistently implemented.
                                   6a(3) Telecommuting policy is not fully developed (NIST 800-46 Section 5.1).
                                   6a(4) Telecommuting procedures are not fully developed or sufficiently detailed
                                         (NIST 800-46 Section 5.4).
                                   6a(5) Agency cannot identify all users who require remote access (NIST 800-46
                                         Section 4.2, Section 5.1).
                                   6a(6) Multi-factor authentication is not properly deployed (NIST 800-46
                                         Section 2.2, Section 3.3).



8
 Taxpayer Data Used at Contractor Facilities May Be at Risk for Unauthorized Access or Disclosure (Reference
Number 2010-20-51, dated May 18, 2010).

                                                                                                               Page 11
                             Treasury Inspector General for Tax Administration –
                                Federal Information Security Management Act
                                         Report for Fiscal Year 2010



                                6a(7) Agency has not identified all remote devices (NIST 800-46 Section 2.1).
                                6a(8) Agency has not determined all remote devices and/or end user computers
                                       have been properly secured (NIST 800-46 Section 3.1 and Section 4.2).
                                6a(9) Agency does not adequately monitor remote devices when connected to the
                                       Agency’s networks remotely (NIST 800-46 Section 3.2).
                                6a(10) Lost or stolen devices are not disabled and appropriately reported
                                       (NIST 800-46 Section 4.3, US-CERT Incident Reporting Guidelines).
                                6a(11) Remote access rules of behavior are not adequate (NIST 800-53, PL-4).
                                6a(12) Remote access user agreements are not adequate (NIST 800-46 Section 5.1
                                       & NIST 800-53, PS-6).
                                6a(13) Other.

                                Explanation for Other:


S7: Identity and Access Management
Status of Account and           a. The Agency has established and is maintaining an account and identity
Identity Management                management program that is generally consistent with NIST’s and OMB’s
Program [check one]                FISMA requirements and identifies users and network devices. Although
                                   improvement opportunities may have been identified by the OIG, the program
                                   includes the following attributes:
                                   1. Documented policies and procedures for account and identity
                                       management.
                                   2. Identifies all users, including Federal employees, contractors, and others
                                       who access Agency systems.
                                   3. Identifies when special access requirements (e.g., multi-factor
                                       authentication) are necessary.
                                   4. If multi-factor authentication is in use, it is linked to the Agency’s PIV
                                       program.
                                   5. Ensures that the users are granted access based on needs and separation of
                                       duties principles.
                                   6. Identifies devices that are attached to the network and distinguishes these
                                       devices from users.
                                   7. Ensures that accounts are terminated or deactivated once access is no
                                       longer required.
                                b. The Agency has established and is maintaining an account and identity
                            9      management program that identifies users and network devices. However, the
                                   Agency needs to make significant improvements as noted below.
                                c.   The Agency has not established an account and identity management program.
7a. If b. checked above,        7a(1) Account management policy is not fully developed.
    check areas that need
    significant             9 7a(2) Account management procedures are not fully developed, sufficiently
    improvement:                        detailed, or consistently implemented.
                                7a(3) Active directory is not properly implemented (NIST 800-53, AC-2).
                                7a(4) Other non-Microsoft account management software is not properly
                                      implemented (NIST 800-53, AC-2).

                                                                                                        Page 12
                                 Treasury Inspector General for Tax Administration –
                                    Federal Information Security Management Act
                                             Report for Fiscal Year 2010


                                     7a(5) Agency cannot identify all User and Non-User accounts (NIST 800-53,
                                           AC-2).
                                     7a(6) Accounts are not properly issued to new users (NIST 800-53, AC-2).
                                9 7a(7) Accounts are not properly terminated when users no longer require access
                                            (NIST 800-53, AC-2).
                                     7a(8) Agency does not use multi-factor authentication when required
                                            (NIST 800-53, IA-2).
                                     7a(9) Agency has not adequately planned for implementation of PIV for logical
                                            access (HSPD-12, FIPS 201, OMB M-05-24, OMB M-07-06,
                                            OMB M-08-01).
                                9    7a(10) Privileges granted are excessive or result in capability to perform
                                            conflicting functions (NIST 800-53, AC-2, AC-6).
                                     7a(11) Agency does not use dual accounts for administrators (NIST 800-53,
                                            AC-5, AC-6).
                                     7a(12) Network devices are not properly authenticated (NIST 800-53, IA-3).

                                     7a(13) Other.

                                     Explanation for Other:
Comments:
7a(2): The IRS has not completed corrective actions to resolve the component of the IRS computer security material
weakness relating to access controls. While the IRS’s corrective action plan for this material weakness indicates
progress has been made in completing the planned actions, there are still ongoing corrective actions with scheduled
completion dates ranging from April to December 2011. These involve ensuring that effective access controls are
implemented IRS-wide. Until the IRS completes these corrective actions, it cannot ensure that access to key
computer applications and systems is limited to authorized persons for authorized purposes.
    •   1-2-20: Develop implementation plan to ensure that corrective actions 1-2-11, 12, 13, 14, 15, and 169 can be
        applied to all organizations, systems, and applications to full levels of effectiveness regarding policies,
        procedures, implementations, monitoring, and testing. (Planned implementation date of April 2011)
    •   1-2-21: Execute implementation plan to ensure that corrective actions 1-2-11, 12, 13, 14, 15, and 16 can be
        applied to all organizations, systems, and applications to full levels of effectiveness regarding policies,
        procedures, implementations, monitoring, and testing. (Planned implementation date of April 2011)
    •   1-2-22: Establish and maintain collection and reporting of metrics to assess progress and track improvements
        in all component activity implementations over time. Successful operation of the policy, procedures, and
        plans for component activities for at least two consecutive quarters. Quarterly review by Cybersecurity and
        annual FISMA security review will revalidate compliance. (Planned implementation date of
        December 2011)
7a(7): In July 2009, the TIGTA reported10 that, in a sample of 7 systems, 53 of 376 contractors had active user
accounts but did not have a business need to access these systems. These 53 contractors consisted of contractors
whose job duties or access privileges had changed and no longer needed system access, contractors who had


9
  These corrective actions listed relate to account management procedures, including controlling user authorizations and levels of
privileges on all systems, applications, databases, and other software. This footnote also applies the corrective action 1-2-21.
10
   Computer System Access Controls Over Contractors Need to Be Improved (Reference Number 2009-20-108, dated July 24,
2009).

                                                                                                                        Page 13
                               Treasury Inspector General for Tax Administration –
                                  Federal Information Security Management Act
                                           Report for Fiscal Year 2010


separated from the contract with the IRS, and contractors who had never logged on to the system or had not logged
on to the system within 45 calendar days. We also identified 15 contractors whose system access was not deleted in
a timely manner upon separation from the contract with the IRS. The IRS agreed with our report findings. The IRS
stated that, effective September 7, 2010, it began tracking information from contractors concerning employee status
changes, including separations and changes in duties, to ensure timely account termination when access is no longer
required.
In addition, in March 2010, the TIGTA reported11 that the Registered User Portal, which allows tax professionals to
electronically submit and retrieve tax-related information, was not configured to disable and remove users’ access
accounts in accordance with IRS security policies and procedures. Rather than implement the control to disable
inactive accounts after 45 days as required by IRS policy, the IRS set the control to 720 days. In addition, the IRS
did not implement a control to remove inactive accounts. Inactive accounts unnecessarily increase the opportunity
for malicious individuals to gain access to taxpayer data through an unused account.
7a(10): In July 2009, the TIGTA reported12 that, from a sample of 7 IRS systems, 12 system development
contractors had access and full privileges to the production environment of the system on which they worked, in
violation of the IRS policy on separation of duties. Developers with access to the production system could bypass
controls and make unapproved and untested changes. In addition, 39 system administration contractors also had
database administrator privileges. This lack of separation of duties could jeopardize the integrity of the data and
allow unauthorized changes to the data to go undetected. The IRS stated it is now notifying contractors during the
on-boarding process of the separation of duties requirement and requiring contractors to identify which one of those
duties they will perform, if any.
In addition, in March 2010, the TIGTA reported13 that 6 of 109 sampled employees’ system privileges on the
Automated Collection System were not restricted to only those privileges needed to perform assigned duties.
Excessive privileges granted included the ability to increase the privileges of other users and to perform
management queries to view large amounts of sensitive tax collection data. When users are granted access
permissions beyond their assigned responsibilities, the risks of malicious actions and unauthorized disclosure of
taxpayer data are increased. In addition, 58 employees had unneeded privileges that allowed them the authority to
create, modify, or delete the system audit trails. These actions, taken either accidently or intentionally, could
conceal unauthorized activity and compromise the integrity of the audit trail.




11
   Additional Security Is Needed for Access to the Registered User Portal (Reference Number 2010-20-027, dated
March 31, 2010).
12
   Computer System Access Controls Over Contractors Need to Be Improved (Reference Number 2009-20-108, dated
July 24, 2009).
13
   Additional Security Controls Are Needed to Protect the Automated Collection System (Reference Number 2010-20-028, dated
March 30, 2010).

                                                                                                                 Page 14
                           Treasury Inspector General for Tax Administration –
                              Federal Information Security Management Act
                                       Report for Fiscal Year 2010




S8: Continuous Monitoring Management
Status of Continuous           a. The Agency has established an entity-wide continuous monitoring program
Monitoring Program                that assesses the security state of information systems that is generally
[check one]                       consistent with NIST’s and OMB’s FISMA requirements. Although
                                  improvement opportunities may have been identified by the OIG, the program
                                  includes the following attributes:
                                  1. Documented policies and procedures for continuous monitoring.
                                  2. Documented strategy and plans for continuous monitoring, such as
                                       vulnerability scanning, log monitoring, notification of unauthorized
                                       devices, sensitive new accounts, etc.
                                  3. Ongoing assessments of selected security controls (system-specific,
                                       hybrid, and common) that have been performed based on the approved
                                       continuous monitoring plans.
                                  4. Provides system authorizing officials and other key system officials with
                                       security status reports covering updates to security plans and security
                                       assessment reports, as well as POA&M additions.
                               b. The Agency has established an entity-wide continuous monitoring program
                           9      that assesses the security state of information systems. However, the Agency
                                  needs to make significant improvements as noted below.
                               c.   The Agency has not established a continuous monitoring program.
8a. If b. checked above,       8a(1) Continuous monitoring policy is not fully developed.
    check areas that
    need significant           8a(2) Continuous monitoring procedures are not fully developed or consistently
    improvement:                     implemented.
                               8a(3) Strategy or plan has not been fully developed for entity-wide continuous
                                     monitoring (NIST 800-37).
                               8a(4) Ongoing assessments of selected security controls (system-specific, hybrid,
                                     and common) have not been performed (NIST 800-53, NIST 800-53A).
                               8a(5) The following were not provided to the system authorizing official or other
                                     key system officials: security status reports covering continuous
                                     monitoring results, updates to security plans, security assessment reports,
                                     and POA&Ms (NIST 800-53, NIST 800-53A).
                               8a(6) Other:
                           9         The IRS has not resolved its computer security material weakness relating
                                     to audit logging.
                               Explanation for Other:
                                      The IRS has not completed corrective actions to resolve the audit logging
                                      component of the IRS computer security material weakness. The IRS
                                      corrective action plan for resolving the audit logging weakness indicates
                                      that there are still ongoing corrective actions with scheduled completion
                                      dates ranging from February 2011 to October 2013. Until corrective
                                      actions are completed to resolve the audit logging material weakness, the
                                      IRS cannot effectively monitor key networks and systems to identify
                                      unauthorized activities and inappropriate system configurations.



                                                                                                       Page 15
                                Treasury Inspector General for Tax Administration –
                                   Federal Information Security Management Act
                                            Report for Fiscal Year 2010


                                            During the 2010 FISMA evaluation period, the TIGTA reported that the
                                            IRS continues to have problems with audit logging. In March 2010, the
                                            TIGTA reported14 that the IRS does not analyze the audit logs for the
                                            Registered User Portal system to detect unlawful or unauthorized
                                            activities. Consequently, unauthorized access to taxpayer data could go
                                            undetected.
                                            In March 2010, the TIGTA reported15 that the IRS is not capturing all of
                                            the required auditable events in Automated Collection System audit trails.
                                            The IRS informed us that enabling all required auditing events would
                                            negatively affect system performance.
                                            In July 2010, the TIGTA reported16 **********2(f)*****************
                                            ***********************************************************
                                            **********************************************************
                                            **********************************************************
                                            ***********************************************************
                                            **********************************************************
                                            **********************************************************
                                            **********************************************************.
Comments:

S9: Contingency Planning
Status of Contingency               a.   The Agency established and is maintaining an entity-wide business
Planning Program                         continuity/disaster recovery program that is generally consistent with NIST’s
[check one]                              and OMB’s FISMA requirements. Although improvement opportunities may
                                         have been identified by the OIG, the program includes the following
                                         attributes:
                                         1. Documented business continuity and disaster recovery policy providing
                                              the authority and guidance necessary to reduce the impact of a disruptive
                                              event or disaster.
                                         2. The Agency has performed an overall Business Impact Assessment.
                                         3. Development and documentation of division, component, and IT
                                              infrastructure recovery strategies, plans, and procedures.
                                         4. Testing of all system-specific contingency plans.
                                         5. The documented business continuity and disaster recovery plans are ready
                                              for implementation.
                                         6. Development of training, testing, and exercises (TT&E) approaches.
                                         7. Performance of regular ongoing testing or exercising of continuity/disaster
                                              recovery plans to determine effectiveness and to maintain current plans.




14
   Additional Security Is Needed for Access to the Registered User Portal (Reference Number 2010-20-027, dated
March 31, 2010).
15
   Additional Security Controls Are Needed to Protect the Automated Collection System (Reference Number 2010-20-028, dated
March 30, 2010).
16
   Additional Actions and Resources Are Needed to Resolve the Audit Trail Portion of the Computer Security Material Weakness
(Reference Number 2010-20-082, dated July 28, 2010).

                                                                                                                   Page 16
                            Treasury Inspector General for Tax Administration –
                               Federal Information Security Management Act
                                        Report for Fiscal Year 2010


                                b. The Agency has established and is maintaining an entity-wide business
                            9      continuity/disaster recovery program. However, the Agency needs to make
                                   significant improvements as noted below.
                                c. The Agency has not established a business continuity/disaster recovery
                                   program.
9a. If b. checked above,        9a(1) Contingency planning policy is not fully developed.
    check areas that need
    significant                 9a(2) Contingency planning procedures are not fully developed or consistently
    improvement:                       implemented.
                                9a(3) An overall business impact assessment has not been performed
                                       (NIST SP 800-34).
                                9a(4) Development of organization, component, or infrastructure recovery
                                       strategies and plans has not been accomplished (NIST SP 800-34).
                                9a(5) A business continuity/disaster recovery plan has not been developed
                                       (FCD1, NIST SP 800-34).
                                9a(6) A business continuity/disaster recovery plan has been developed, but not
                                       fully implemented (FCD1, NIST SP 800-34).
                                9a(7) System contingency plans missing or incomplete (FCD1, NIST SP 800-34,
                                       NIST SP 800-53).
                                9a(8) Critical systems contingency plans are not tested (FCD1, NIST SP 800-34,
                                       NIST SP 800-53).
                                9a(9) Training, testing, and exercises approaches have not been developed
                                       (FCD1, NIST SP 800-34, NIST SP 800-53).
                                9a(10) Training, testing, and exercises approaches have been developed, but are
                                       not fully implemented (FCD1, NIST SP 800-34, NIST SP 800-53).
                                9a(11) Disaster recovery exercises were not successful (NIST SP 800-34).
                                9a(12) After-action plans did not address issues identified during disaster recovery
                                       exercises (FCD1, NIST SP 800-34).
                                9a(13) Critical systems do not have alternate processing sites (FCD1,
                                       NIST SP 800-34, NIST SP 800-53).
                                9a(14) Alternate processing sites are subject to same risks as primary sites (FCD1,
                                       NIST SP 800-34, NIST SP 800-53).
                                9a(15) Backups of information are not performed in a timely manner (FCD1,
                                       NIST SP 800-34, NIST SP 800-53).
                                9a(16) Backups are not appropriately tested (FCD1, NIST SP 800-34,
                                       NIST SP 800-53).
                                9a(17) Backups are not properly secured and protected (FCD1, NIST SP 800-34,
                                       NIST SP 800-53).
                            9   9a(18) Other:
                                       The IRS has made significant progress, but has not resolved its material
                                       weakness relating to disaster recovery controls.
                                Explanation for Other:
                                       The IRS has not yet fully implemented adequate processes to ensure
                                       disaster recovery capabilities are implemented IRS-wide. While the IRS’s
                                       material weakness corrective action plan indicates progress has been made
                                       in mitigating disaster recovery issues, the following disaster recovery
                                       corrective actions are still ongoing with scheduled completion dates

                                                                                                          Page 17
            Treasury Inspector General for Tax Administration –
               Federal Information Security Management Act
                        Report for Fiscal Year 2010


                   ranging from October 2010 to December 2011. These involve ensuring
                   effective disaster recovery controls are implemented IRS-wide. Until the
                   IRS has completed its corrective actions to resolve this weakness, it cannot
                   ensure critical business systems can be timely restored when unexpected
                   events occur.
                     •   1-6-16 – Disaster Recovery Compliance: Complete internal
                         auditing of the disaster recovery efforts to ensure accuracy and
                         completeness as it relates to day-to-day operations and efforts to
                         mitigate the material weakness. Establish and maintain metrics
                         documentation to assess progress and track improvements in all
                         component activities over time. Conduct an annual evaluation to
                         revalidate compliance. (Planned implementation date of July 2011)
                     •   1-6-17 – Disaster Recovery Plans: Develop and maintain
                         Information Technology contingency plans associated with general
                         support systems to include all components that support critical
                         applications. Establish and maintain data and processing
                         backup-recovery capability. Ensure maximum allowable outage
                         times meet the recovery time objectives of the applications being
                         supported. (Planned implementation date of December 2010)
                     •   1-6-19 – Technical Assessment: Perform annual system risk
                         assessments. Develop a true redundancy/resilience analysis. Based
                         on the critical business processes, develop a site-based restoration
                         vulnerability analysis. Create a Recovery Point Objective and
                         Recovery Time Objective analysis and gain concurrence from both
                         the business operating divisions and the Modernization and
                         Information Technology Services organizations. Incorporate a
                         technical assessment tool that will provide an infrastructure impact
                         analysis in the event of a disaster. Implement backup-recovery
                         capabilities to meet application maximum allowable outages and
                         recovery time objectives of all Information Technology systems
                         supporting the critical business processes. (Planned implementation
                         date of July 2011)
                     •   1-6-20 – Metrics: Establish and maintain metrics to assess progress
                         and track improvements in all component activities over time.
                         Successful operation of the policy, procedures, and plans for
                         component activities for at least two quarters. Annual FISMA
                         testing will revalidate compliance. (Planned implementation date of
                         December 2011)
Comments:




                                                                                     Page 18
                            Treasury Inspector General for Tax Administration –
                               Federal Information Security Management Act
                                        Report for Fiscal Year 2010




S10/S11: Contractor Systems/Financial Audit
Status of Agency                a.  The Agency has established and maintains a program to oversee systems
Program to Oversee                  operated on its behalf by contractors or other entities. Although improvement
Contractor Systems                  opportunities may have been identified by the OIG, the program includes the
[check one]                         following attributes:
                                    1. Documented policies and procedures for information security oversight of
                                         systems operated on the Agency’s behalf by contractors or other entities
                                         of the Agency obtains sufficient assurance that security controls of
                                         systems operated by contractors or others on its behalf are effectively
                                         implemented and comply with Federal and Agency guidelines.
                                    2. A complete inventory of systems operated on the Agency’s behalf by
                                         contractors or other entities.
                                    3. The inventory identifies interfaces between these systems and
                                         Agency-operated systems.
                                    4. The Agency requires agreements (MOUs, Interconnect Service
                                         Agreements, contracts, etc.) for interfaces between these systems and
                                         those that it owns and operates.
                                    5. The inventory, including interfaces, is updated at least annually.
                                    6. Systems that are owned or operated by contractors or entities are subject
                                         to and generally meet NIST’s and OMB’s FISMA requirements.
                                b. The Agency has established and maintains a program to oversee systems
                            9       operated on its behalf by contractors or other entities. However, the Agency
                                    needs to make significant improvements as noted below.
                                c. The Agency does not have a program to oversee systems operated on its
                                    behalf by contractors or other entities.
10a.If (b) checked above,       10a(1) Policies to oversee systems operated on the Agency’s behalf by contractors
    check areas that need               or other entities are not fully developed.
    significant                 10a(2) Procedures to oversee systems operated on the Agency’s behalf by
    improvement:                        contractors or other entities are not fully developed or consistently
                                        implemented.
                            9   10a(3) The inventory of systems owned or operated by contractors or other
                                        entities is not sufficiently complete.
                                10a(4) The inventory does not identify interfaces between contractor/
                                        entity-operated systems to Agency-owned and operated systems.
                                10a(5) The inventory of contractor/entity-operated systems, including interfaces,
                                        is not updated at least annually.
                                10a(6) Systems owned or operated by contractors and entities are not subject to
                                        NIST’s and OMB’s FISMA requirements (e.g., certification and
                                        accreditation requirements).
                                10a(7) Systems owned or operated by contractors and entities do not meet NIST’s
                                        and OMB’s FISMA requirements (e.g., certification and accreditation
                                        requirements).
                                10a(8) Interface agreements (e.g., MOUs) are not properly documented,
                                        authorized, or maintained.
                                10a(9) Other.
                                Explanation for Other:

                                                                                                        Page 19
                              Treasury Inspector General for Tax Administration –
                                 Federal Information Security Management Act
                                          Report for Fiscal Year 2010


Comments:
10a(3): The IRS was unable to provide us with a definitive inventory of contractor managed systems and agreed
that this inventory required improvement. In May 2010, the TIGTA reported17 that current processes were not
effective at identifying all contractors who receive IRS taxpayer data and therefore are subject to required security
reviews. The IRS agreed with our finding and has implemented an automated mechanism to identify all contractors
that have access to sensitive data. This information will be available to target sites for security reviews during the
Fiscal Year 2012 review cycle. The IRS stated it will also use this information to determine which of these meet the
definition of a contractor system. In addition, where contracts may not fall into the definition of a contract system,
the IRS is working towards developing new contract language to address security requirements and to potentially
provide these contractors with IRS-configured laptops to help enforce security policy.
11. Financial Audit          11a. For the latest Financial Audit Report issued for the Agency, please provide the date
                                  of the report and indicate whether there was a material weakness or reportable
                                  condition concerning information security.
                            Input for 11a:
                            In March 2010, the GAO reported18 newly identified and unresolved information
                            security control weaknesses in key financial and tax processing systems continue to
                            jeopardize the confidentiality, integrity, and availability of financial and sensitive
                            taxpayer information. Until these control weaknesses and program deficiencies are
                            corrected, the IRS remains unnecessarily vulnerable to insider threats related to the
                            unauthorized access to and disclosure, modification, or destruction of financial and
                            taxpayer information, as well as the disruption of system operations and services. The
                            new and unresolved weaknesses and deficiencies at the IRS were the basis for the
                            GAO’s determination that the IRS had a material weakness in internal controls over
                            financial reporting related to information security in Fiscal Year 2009.




17
   Taxpayer Data Used at Contractor Facilities May Be at Risk for Unauthorized Access or Disclosure (Reference
Number 2010-20-051, dated May 18, 2010).
18
   INFORMATION SECURITY: IRS Needs to Continue to Address Significant Weaknesses (GAO-10-355, dated March 2010).

                                                                                                            Page 20
                    Treasury Inspector General for Tax Administration –
                       Federal Information Security Management Act
                                Report for Fiscal Year 2010


                                                                           Appendix II

Treasury Inspector General for Tax Administration
 Information Technology Security Reports Issued
        During the 2010 Evaluation Period

1. Computer System Access Controls Over Contractors Need to Be Improved (Reference
   Number 2009-20-108, dated July 24, 2009).
2. Customer Account Data Engine Release 4 Includes Most Planned Capabilities and
   Security Requirements for Processing Individual Tax Account Information (Reference
   Number 2009-20-100, dated August 28, 2009).
3. Significant Improvements Have Been Made to Protect Sensitive Data on Laptop
   Computers and Other Portable Electronic Media Devices (Reference
   Number 2009-20-120, dated August 31, 2009).
4. Progress Has Been Made, but Additional Steps Are Needed to Ensure Taxpayer Accounts
   Are Monitored to Detect Unauthorized Employee Accesses (Reference
   Number 2009-20-119, dated September 9, 2009).
5. While Effective Actions Have Been Taken to Address Previously Reported Weaknesses in
   the Protection of Federal Tax Information at State Government Agencies, Additional
   Improvements Are Needed (Reference Number 2010-20-003, dated November 10, 2009).
6. Additional Security Controls Are Needed to Protect the Automated Collection System
   (Reference Number 2010-20-028, dated March 30, 2010).
7. Additional Security Is Needed for Access to the Registered User Portal (Reference
   Number 2010-20-027, dated March 31, 2010).
8. Taxpayer Data Used at Contractor Facilities May Be at Risk for Unauthorized Access or
   Disclosure (Reference Number 2010-20-051, dated May 18, 2010).
9. Modernized e-File Will Enhance Processing of Electronically Filed Individual Tax
   Returns, but System Development and Security Need Improvement (Reference
   Number 2010-20-041, dated May 26, 2010).
10. Implementation of General Support System Security Controls Needs Improvement to
    Protect Taxpayer Data (Reference Number 2010-20-063, dated June 7, 2010).




                                                                                   Page 21
                        Treasury Inspector General for Tax Administration –
                           Federal Information Security Management Act
                                    Report for Fiscal Year 2010


                                                                             Appendix III

                 Major Contributors to This Report

Alan Duncan, Assistant Inspector General for Audit (Security and Information Technology
Services)
Kent Sagara, Director
Jody Kitazono, Audit Manager
Joan Bonomi, Senior Auditor
Richard Borst, Senior Auditor
Bret Hunter, Senior Auditor
Louis Lee, Senior Auditor
Larry Reimer, Senior Auditor
Frank O’Connor, Auditor
Victor Taylor, Auditor




                                                                                     Page 22
                       Treasury Inspector General for Tax Administration –
                          Federal Information Security Management Act
                                   Report for Fiscal Year 2010


                                                                  Appendix IV

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Chief Technology Officer OS:CTO
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Liaison: Chief Technology Officer OS:CTO




                                                                         Page 23
